IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
04/15/2021
accurate as of _________________.
You can contact us toll free at (800) 448-4096 or P.O. Drawer 8, Daleville, AL 36322 to
inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Platinum MasterCard
Annual Percentage Rate
(APR) for Purchases

Platinum CU Rewards
MasterCard

Platinum Secured Rewards
MasterCard

% Introductory

14.99 %

N/A % Introductory

0

APR for 6 months for any
purchase made within the
first 6 months of the account
opening.

APR for 6 months for any
purchase made within the
first 6 months of the account
opening.

After that, your Standard
APR will be

After that, your Standard
APR will be

9.99 % to
18.00 %

11.99 % to
18.00 %

depending on your credit
history.

depending on your credit
history.

Annual Percentage Rate for
Cash Advances

% to 18.00 %
9.99
depending on your credit
history.

11.99 % to 18.00 %
depending on your credit
history.

14.99

%

APR for Balance Transfers

N/A % Introductory APR
for 6 months for any
balance transfer made
within the first 6 months of
the account opening.

N/A % Introductory APR
for 6 months for any
balance transfer made
within the first 6 months of
the account opening.

14.99

%

After that, your Standard
APR will be
% to 18.00 %
9.99
depending on your credit
history.

After that, your Standard
APR will be
11.99 % to 18.00 %
depending on your credit
history.

Penalty APR and When it
Applies

None

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge
you interest on purchases if you pay your entire new purchase balance by the due date
each month. We will begin charging interest on cash advances and balance transfers on
the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

SEE NEXT PAGE for more important information about this account

9013 LASER EPI FPDF FI18242 Rev 8-2020

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

FEES:
Fees to Open or Maintain
your Account
• Annual Fee:
• Application Fee:

None
None

Transaction Fees
• Balance Transfer:

None

• Cash Advance:

3% of the amount of each cash advance

• Foreign Transaction:

1.10% of each transaction in U.S. dollars if the transaction involves a currency conversion
1.10% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
• Late Payment:

10% of the amount past due one month or more, minimum $15.00 (maximum: $25.00)

• Over-the-Credit Limit:

None

• Returned Payment:

Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late
payment.

9013 LASER EPI FPDF FI18242 Rev 8-2020

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS ALL IN FEDERAL CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR
CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE
THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY
YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral is
your principal residence or non-purchase money household goods.
Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain
purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may
block the use of your Card in certain countries or geographic areas. We will
have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We
may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your Card
to access your account, and all sums advanced will be added to your account
balance. In the event a use of your PIN constitutes an Electronic Funds
Transfer, the terms and conditions of your Electronic Funds Transfer
Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or
fees; (c) collection costs and attorney's fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you.
Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this Agreement.
We may decline any transaction that we believe to be illegal under applicable
law, including but not limited to any transaction involving or relating to any
gambling activity. You agree that we will have no liability or responsibility for
any such use by you or any authorized user(s); or for declining any such
transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or
indirectly from such illegal use. You promise to pay us any and all amounts
owing on your Card for any transactions made by you, even if the transaction
is determined to be illegal.

Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay
for all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If
someone else is authorized to use your account and you want to end that
person's privilege, you must notify us in writing, and if he or she has a Card,
you must return that Card with your written notice for it to be effective.
Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances,
balance transfers or other advances, and subtract any payments, unpaid
interest charges, and unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide that by
the number of days in the billing cycle. We then multiply that by the periodic
rate corresponding to the Annual Percentage Rate on your account. If you
have different rates for purchases, cash advances or balance transfers,
separate average daily balances for each will be calculated and the
appropriate periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of the new balance for purchases each
month by the date on which the payment is due. Otherwise, the new balance
of your account, and subsequent advances from the date they are posted to
the account, will be subject to an Interest Charge. You cannot avoid Interest
Charges on cash advances and balance transfers; even if you pay the entire
cash advance balance or balance transfer balance by the payment due date,
you will incur the Interest Charges accrued from the date the cash advance or
balance transfer is posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree to also
pay any and all fees that you incur as disclosed to you on your Truth-inLending Statement or similar disclosures (as may be amended from time to
time), or as disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use of
the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The
telephone number to call is 1-800-449-7728. You agree to follow up your call
with notice in writing to us at: PO Box 31281, Tampa, FL 33631-3281. You
also agree to assist us in determining the facts, circumstances and other
pertinent information relating to any loss, theft or possible unauthorized use of
your Card and comply with such procedures as we may require in connection
with our investigation. You will have no liability for MasterCard transactions
not authorized by you, provided that you have exercised reasonable care in
safeguarding the Card from risk of loss or theft, and upon becoming aware of
such loss of theft, you promtly report the loss or theft to us.

Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction
under the account.

9013 LASER EPI FPDF FI18242 Rev 8-2020

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE
DESIGNATED BY YOU UNDER THE TERMS OF THIS AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS ALL IN FEDERAL CREDIT UNION OR ITS SUCCESSORS. BY USING YOUR
CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment
is received by us on a business day at the address and by the time
designated on the billing statement, it will be credited to your account on the
date of receipt. If payment is made at any location other than the address
designated on the periodic statement, credit for such payment may be
delayed up to five (5) days. Payments will be applied in any order we
determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will be in
default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements
you have with us; (3) if you die; (4) if you file a petition in bankruptcy or have a
bankruptcy petition filed against you, or if you become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to
take any of your funds held by us via legal process or if you have a judgment
or tax lien filed against you; (6) if you make any false, inaccurate, or
misleading statements in any credit application or credit update; or (7) if we, in
good faith, believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any shares that were given as security for your
account may be applied towards what you owe. You agree to pay all
reasonable costs of collection, including court costs and attorney's fees, and
any costs incurred in the recovery of the Card, subject to applicable law. Even
if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us or you cause
a loss to us. We shall not be liable to you in any regard in connection with
such suspension of services.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may withdraw
or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.
Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the
purpose of updating your credit status. Your failure to provide such information
when requested by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by any
means. You authorize us to investigate your credit standing when opening or
reviewing your account. You authorize us to disclose information regarding
your account to credit bureau and creditors who inquire about your credit
standing.
Foreign Transactions; Currency Conversion. Purchases
and cash
advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company
itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. All transactions processed outside
of the United States (which may include internet transactions) will be charged
a foreign transaction fee in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).

9013 LASER EPI FPDF FI18242 Rev 8-2020

Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the periodic rate,
at any time, by written notice, subject to applicable law. Use of the Card
constitutes agreement and acceptance of any change in terms, unless
applicable law requires otherwise. Our failure to exercise any of our rights or
to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still need
to make the minimum scheduled payment by the next scheduled due date to
keep your account current. We may accept late payments, partial payments,
checks or money orders marked "payment in full" and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be
refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant. You must resolve all other
disputes directly with the plan merchant. We do not warrant any merchandise
or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity
may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall be
located in the county and state in which we are primarily located. Operating
regulations of MasterCard may also apply. This Agreement is the contract that
applies to all transactions even though the sales, cash advance, convenience
check, credit or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This written
agreement may not be contradicted by evidence of any oral agreement.

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the Military
Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property or a vehicle
that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this loan is a revolving
line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent (as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums or debt protection
fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To receive
this notice verbally, please call 1-800-448-4096 during normal business hours: Monday-Friday 8am to 6pm.
2. This loan will not be secured by a consensual lien on shares or deposits in any of your accounts unless you agree to establish an account in connection
with this loan (“Secured Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any cross-collateralization
provision contained in your loan or account documents will not apply to the Secured Account or your other share or deposit accounts for any loan subject
to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to apply the
sums in the Secured Account or any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any requirement(s) to
waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as unreasonable notice from
you in order to exercise your legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or contradictory to
these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan. However, all other terms
and conditions of the consumer credit contract shall remain in full force and effect.
YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

9013 LASER EPI FPDF FI18242 Rev 8-2020

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

